                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

111s;    b Number: A-02100045                                                                      Page 1 of I



            On 7 October 2002, we received an allegation of intellectual theft. Allegedly, subjects 1 and 2'
            used an idea in their NSF proposal2 that belonged to another scientist (the ~cientist).~According
            to the scientist, he invited subject 1 and others to work with him on developing the idea. The
            scientist claimed he did not give the subjects permission to use the idea in the subjects' NSF
            proposal.

            Our review noted the scientist, subject 1, and a third co-author published an abstract4that
            presented the idea. The subjects' NSF proposal contained six citations to this abstract. One ad
            hoc reviewer of the subjects' proposal commented on the joint development of the idea by
            subject 1 and the scientist. We also learned that the scientist, subject 1, and others worked
            together for several years leading up to the publication of the abstract. However, during this
            period, we learned that the collaborative relationship between the scientist and subject 1
            deteriorated. This ultimately resulted in subject 1 asking subject 2 to work with him on the
            continuation of this project, effectively severing the collaboration. Subjects 1 and 2 used the idea
            that subject 1 had shared with the scientist and others, appropriately referencing it in the NSF
            proposal. The actions of subject 1 and 2 did not represent intellectual theft.

            This case is closed and no further action will be taken.




                               Agent                   Attorney                Supervisor                    AIGI

        Sign 1 date
 I '                  I                       I                        I                       I


                                                                                                     OIG Form 2 (2102)
